   DEPARTMENT OF HEALTH & HUMAN SERVICES                                 OFFICE OF INSPECTOR GENERAL

                                                                         Washington, D.C. 20201




March 2, 2011

TO:             Yolanda J. Butler, Ph.D.
                Acting Director
                Office of Community Services
                Administration for Children and Families


FROM:           /Lori S. Pilcher/
                Assistant Inspector General for Grants, Internal Activities,
                  and Information Technology Audits


SUBJECT:        Review of Colorado’s Monitoring of Community Services Block Grants
                (A-07-10-02761)


The attached final report provides the results of our review of the State of Colorado’s monitoring
of Community Services Block Grants. We will issue this report to the Colorado Department of
Local Affairs within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov or Patrick J. Cogley, Regional
Inspector General for Audit Services, Region VII, at (816) 426-3591 or through email at
Patrick.Cogley@oig.hhs.gov. Please refer to report number A-07-10-02761.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




  REVIEW OF COLORADO’S
 MONITORING OF COMMUNITY
        SERVICES
      BLOCK GRANTS




                      Daniel R. Levinson
                       Inspector General

                         March 2011
                        A-07-10-02761
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                                                             Office of Inspector General
   DEPARTMENT OF HEALTH & HUMAN SERVICES                                     Office of Audit Services



                                                                             Region VII
                                                                             601 East 12th Street
                                                                             Room 0429
                                                                             Kansas City, Missouri 64106
March 7, 2011

Report Number: A-07-10-02761

Mr. Reeves Brown
Executive Director
Colorado Department of Local Affairs
1313 Sherman Street, #500
Denver, CO 80203

Dear Mr. Brown:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Colorado’s Monitoring of Community Services
Block Grants. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact James Korn, Audit Manager, at (303) 844-7153 or through email at
James.Korn@oig.hhs.gov. Please refer to report number A-07-10-02761 in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Reeves Brown

Direct Reply to HHS Action Official:

Mr. Oscar Tanner
Director
Division of Financial Integrity
6th Floor East Wing, Aerospace Building
370 L’Enfant Promenade S.W.
Washington, DC 20447
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




  REVIEW OF COLORADO’S
 MONITORING OF COMMUNITY
        SERVICES
      BLOCK GRANTS




                      Daniel R. Levinson
                       Inspector General

                         March 2011
                        A-07-10-02761
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Community Services Block Grant (CSBG) program was reauthorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P. L. No.
105-285 (the CSBG Act), to provide funds to alleviate the causes and conditions of poverty in
communities. Within the U.S. Department of Health & Human Services, the Administration for
Children and Families (ACF), Office of Community Services, administers the CSBG program.
The CSBG program funds a State-administered network of more than 1,100 local agencies that
create, coordinate, and deliver programs and services to low-income Americans. States received
approximately $680 million in fiscal years (FY) 2009 and 2010 through the CSBG program.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (the Recovery Act),
provided $1 billion in additional CSBG funds for FYs 2009 and 2010. To promote transparency
and accountability, section 1512 of the Recovery Act requires each recipient of Recovery Act
funds to report on its use of funds to the applicable Federal agency not later than 10 days after
the end of each calendar quarter. The reports should include, among other things, the total
amount of Recovery Act funds received, the amount that was spent or obligated, and the number
of jobs created or retained with Recovery Act funds.

Community Services Block Grant Program in Colorado

In Colorado, the Department of Local Affairs (State agency) administers the CSBG program.
The State agency received approximately $6 million in regular CSBG funds each year for FYs
2009 and 2010. The Recovery Act provided the State agency with approximately $8.7 million in
additional CSBG funds for FYs 2009 and 2010 to 40 eligible entities. These entities consist of
36 local government agencies and 4 Community Action Agencies.

Federal Requirements for State Monitoring of Community Services Block Grant Funds

Pursuant to section 678(B) of the CSBG Act, cognizant State agencies must monitor eligible
entities by conducting full onsite reviews of each eligible entity at least once during each 3-year
period. A State agency conducts these reviews to determine whether eligible entities meet the
performance goals, administrative standards, financial requirements, and other requirements of
its State.

After the Recovery Act was implemented, ACF issued guidance (IM-112 memorandum, dated
August 18, 2009) which says that State agencies are expected to review risk assessments
conducted by eligible entities and provide the risk assessments, with State agency comments, to
ACF’s Office of Community Services.




                                                 i
OBJECTIVE

Our objective was to determine whether the State agency established adequate internal controls
for the assessment and monitoring of eligible entities provided with CSBG funds under the
Recovery Act.

SUMMARY OF FINDINGS

The State agency did not establish adequate internal controls for assessing and monitoring
eligible entities provided with CSBG funds under the Recovery Act. Specifically, the State
agency did not:

   •   conduct full onsite reviews at all eligible entities within a 3-year period; ensure that
       CSBG funds were used to provide services only to eligible clients; conduct initial
       Recovery Act onsite reviews at each eligible entity that received Recovery Act funding;
       or adequately document Recovery Act onsite reviews;

   •   ensure that risk assessments performed by eligible entities were accurate before they were
       submitted to ACF; and

   •   accurately report Recovery Act accomplishments.

These deficiencies occurred because the State agency lacked written policies and procedures to
ensure compliance with the provisions of the CSBG Act and the Recovery Act.

Without adequate internal controls, Recovery Act and regular CSBG program funds may be at
risk of fraud, waste, and abuse at eligible entities. Furthermore, the reporting errors could have
resulted in the public being misled or confused by incomplete information regarding the State
agency’s use of Recovery Act funds.

RECOMMENDATIONS

We recommend that the State agency:

   •   establish and implement written policies and procedures for the conduct of full onsite
       reviews at its eligible entities in a timely manner, ensure through these reviews that
       subgrantees have income eligibility validation controls in place, and properly document
       the results of these reviews; and

   •   correct inaccurately compiled and reported Recovery Act information and work with
       ACF to correct errors from reporting periods for which the State agency no longer has the
       ability to change independently on the Recovery.gov website.




                                                 ii
STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, the State agency agreed with our recommendations and
described corrective actions that it had implemented or planned to implement. We did not verify
the corrective actions.

The State agency’s comments are included in their entirety as the Appendix.




                                              iii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION................................................................................................................1

          BACKGROUND ......................................................................................................1
              Federal Community Services Block Grant Program .....................................1
              Office of Community Services ......................................................................1
              Community Services Block Grant Program in Colorado ..............................1
              Office of Inspector General Audits ................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY .....................................................2
               Objective ........................................................................................................2
               Scope .............................................................................................................2
               Methodology ..................................................................................................2

FINDINGS AND RECOMMENDATIONS ......................................................................3

          PERFORMANCE AND DOCUMENTATION OF FULL ONSITE REVIEWS ....4
               Federal Requirements ....................................................................................4
               State Plan Requirements ................................................................................4
               State Agency’s Compliance With Federal and State Onsite
                 Review Regulations ....................................................................................4

          REVIEW AND SUBMISSION OF RISK ASSESSMENTS ....................................5
               Federal Requirements ....................................................................................5
               State Agency’s Compliance With Federal Risk Assessment
                 Regulations .................................................................................................5

          DATA QUALITY AND REPORTING.....................................................................5
               Federal Requirements ....................................................................................5
               Inaccurate Recovery Act Accomplishments Reported ..................................6

          LACK OF POLICIES AND PROCEDURES ..........................................................7

          RECOMMENDATIONS ..........................................................................................7

          STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
               RESPONSE....................................................................................................7

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iv
                                       INTRODUCTION

BACKGROUND

Federal Community Services Block Grant Program

The Community Services Block Grant Program (CSBG) was reauthorized by the Community
Opportunities, Accountability, and Training and Educational Services Act of 1998, P. L. No.
105-285 (the CSBG Act), to provide funds to alleviate the causes and conditions of poverty in
communities. The U.S. Department of Health & Human Services (HHS), Administration for
Children and Families (ACF), Office of Community Services (OCS), is responsible for
overseeing the CSBG program. The CSBG program funds a State-administered network of more
than 1,100 local agencies that create, coordinate, and deliver programs and services to low-
income Americans. States received approximately $680 million in fiscal years (FY) 2009 and
2010 through the CSBG program.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (the Recovery Act),
provided $1 billion in additional CSBG funds for FYs 2009 and 2010. As with annually
appropriated CSBG funds, Recovery Act funds may be used to reduce poverty, to revitalize
low-income communities, and to help low-income families in rural and urban areas become
self-sufficient.

To promote transparency and accountability, section 1512 of the Recovery Act requires each
recipient of Recovery Act funds to report on its use of funds to the applicable Federal agency not
later than 10 days after the end of each calendar quarter. The reports should include, among
other things, the total amount of Recovery Act funds received, the amount that was spent or
obligated, and the number of jobs created or retained with Recovery Act funds.

Office of Community Services

States and territories submit applications annually or bi-annually to OCS, applications that
include (1) a statement of goals and objectives, (2) information on the specific types of activities
to be supported, (3) areas and categories of individuals to be served, and (4) criteria and methods
for distributing funds to local agencies.

Community Services Block Grant Program in Colorado

In Colorado, the Department of Local Affairs (State agency) administers the CSBG program.
The State agency received approximately $6 million in regular CSBG funds each year for FYs
2009 and 2010. The Recovery Act provided the State agency with approximately $8.7 million in
additional CSBG funds for FYs 2009 and 2010. Of the combined $20.7 million in Recovery Act
and regular CSBG program funds provided in this time period, $18.9 million passed through to
the State’s eligible entities. The State agency retained approximately $1.8 million to monitor
these eligible entities to ensure compliance with applicable Federal requirements and
achievement of performance goals, as required by 45 CFR § 92.40(a).



                                                 1
Colorado has 40 entities that are eligible to receive CSBG funds (eligible entities). These entities
consist of 36 local government agencies and 4 Community Action Agencies (CAA). The
eligible entities provide direct services to residents throughout Colorado. Examples of services
include those related to employment, education, emergency services, income management,
housing assistance, nutrition, and health. The eligible entities use the majority of the CSBG
funding they receive for planning, coordination, and administrative support activities that are
difficult to fund through program grants. The State agency provides technical assistance and
training to the eligible entities.

Office of Inspector General Audits

On December 31, 2009, we issued a memorandum 1 to ACF alerting it that CSBG program funds
made available under the Recovery Act might be at risk for fraud, waste, and abuse at certain
CAAs that State agencies designated as “vulnerable” or “in crisis.” We reviewed ACF records in
November 2009 and identified 20 CAAs in 16 States that the States had reported as vulnerable or
in crisis as of October 30, 2009. These 20 CAAs are scheduled to receive a total of $44.9 million
in Recovery Act funds.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency established adequate internal controls
for the assessment and monitoring of eligible entities provided with CSBG funds under the
Recovery Act.

Scope

Our review covered the period April 1, 2009, through May 10, 2010. We reviewed and assessed
the State agency’s internal controls only to the extent necessary to achieve our audit objective.

We performed our fieldwork in May 2010 at the State agency’s offices in Denver, Colorado.

Methodology

To accomplish our objective, we:

    •   reviewed Federal laws, regulations, and policies related to Federal grant awards and the
        CSBG program;

    •   reviewed the State agency’s application and plan for Recovery Act funds;

    •   reviewed the State agency’s documentation of its full onsite reviews of eligible entities;

1
 Office of Inspector General, Alert: Community Services Block Grant Recovery Act Funding for Vulnerable and In-
Crisis Community Action Agencies (A-01-09-02511). Available at:
http://oig.hhs.gov/oas/reports/region1/10902511.pdf. Accessed May 20, 2010.

                                                      2
   •   reviewed the database maintained by the State agency containing eligible entities’ annual
       audit report data from the Federal Audit Clearinghouse for the most current audit report,
       which included FY 2008 or FY 2009 if available;

   •   reviewed risk assessments from October 2009 for all the eligible entities;

   •   reviewed job estimate information reported by eligible entities to the State agency and
       submitted by the State agency to ACF; and

   •   discussed our preliminary findings with State agency officials on May 24, 2010.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The State agency did not establish adequate internal controls for assessing and monitoring
eligible entities provided with CSBG funds under the Recovery Act. Specifically, the State
agency did not:

   •   conduct full onsite reviews at all eligible entities within a 3-year period; ensure that
       CSBG funds were used to provide services only to eligible clients; conduct initial
       Recovery Act onsite reviews at each eligible entity that received Recovery Act funding;
       or adequately document Recovery act onsite reviews;

   •   ensure that risk assessments performed by eligible entities were accurate before they were
       submitted to ACF; and

   •   accurately report Recovery Act accomplishments.

These deficiencies occurred because the State agency lacked written policies and procedures to
ensure compliance with the provisions of the CSBG Act and the Recovery Act.

Without adequate internal controls, Recovery Act and regular CSBG program funds may be at
risk of fraud, waste, and abuse at eligible entities. Furthermore, the reporting errors could have
resulted in the public being misled or confused by incomplete information regarding the State
agency’s use of Recovery Act funds.




                                                 3
PERFORMANCE AND DOCUMENTATION OF FULL ONSITE REVIEWS

Federal Requirements

Section 678(B) of the CSBG Act requires State agencies to monitor eligible entities by
conducting full onsite reviews of each eligible entity at least once during each 3-year period.
The State agency conducts these reviews to determine whether eligible entities meet the
performance goals, administrative standards, financial requirements, and other requirements
established by the State of Colorado.

Section 673(2) of the CSBG Act established an income eligibility level, applicable to
beneficiaries receiving services funded by the CSBG program, of 125 percent of the Federal
poverty level. The Recovery Act made provisions, for FYs 2009 and 2010, whereby States and
the eligible entities that administer the CSBG program at the local level could increase that
income eligibility level to 200 percent of the Federal poverty level.

State Plan Requirements

The State agency developed a separate State plan for the CSBG Recovery Act funding.
According to the State plan, the State agency will monitor grantees twice during the Recovery
Act grant timeframe. The State plan also specifies that the State agency will use established
monitoring forms to document visits and identify successes and opportunities.

State Agency’s Compliance With Federal and State Onsite Review Regulations

The State agency did not conduct full onsite reviews at all 40 of its entities within the 3-year
period as required. Additionally, the State agency did not ensure that CSBG funds were used to
provide services only to eligible clients. Furthermore, the State agency did not conduct onsite
reviews of Recovery Act funded entities or adequately document the reviews for all of those
entities in accordance with the State plan. Specifically:

   •   The State agency did not review 1 of its 40 eligible entities within the most recent 3-year
       period. As of the end of our fieldwork, the State agency was 9 months late in
       conducting the triennial onsite review of this entity. In addition, the State agency planned
       to conduct its triennial review of another entity five months after the date on which that
       entity’s review would have become overdue.

   •   The State agency did not ensure that CSBG funds were used to provide services only to
       eligible clients. During onsite reviews, the State agency relied on eligible entities’ use of
       individuals’ self-certifications to verify the individuals’ compliance with the eligibility
       requirements related to the Federal poverty level for the CSBG program. State agency
       officials said that they believed that the verification of income eligibility was not required
       under the CSBG program. Although the CSBG Act does not address income verification,
       the State agency remains responsible for establishing adequate controls to ensure that
       beneficiaries of CSBG funding meet income eligibility qualifications pursuant to the
       provisions of both the CSBG Act and the Recovery Act.

                                                 4
   •   The State agency had not performed the initial Recovery Act onsite reviews at 5 of its 40
       eligible entities. Two of the 5 entities started drawing Recovery Act funds in
       September 2009 and had drawn over $325,000 as of May 10, 2010. (The remaining three
       entities had not begun to draw their Recovery Act funds at the conclusion of our
       fieldwork.)

   •   The State agency inadequately documented 31 of the 35 Recovery Act onsite reviews it
       had performed. The State agency official performing the onsite monitoring reviews did
       not use the established monitoring forms specified in the State plan. The only
       documentation of each of the 31 monitoring reviews done by this official were the
       monitoring notification letter or email, the entity’s name noted on a calendar, and a brief
       handwritten note describing the official’s conclusion.

REVIEW AND SUBMISSION OF RISK ASSESSMENTS

Federal Requirements

On August 18, 2009, ACF issued guidance in the form of CSBG Information Memoranda
(IM-112 memorandum), which says that State agencies are expected to review risk assessments
conducted by eligible entities and provide the risk assessments, with State agency comments, to
OCS. Each eligible entity must perform a risk assessment and answer a series of questions,
including whether or not it has material weaknesses, uncorrected findings, or other problems.
After reviewing these risk assessments, State agencies may either certify that they concur with
the risk assessments of eligible entities or provide comments on additional areas of risk.

State Agency’s Compliance With Federal Risk Assessment Regulations

The State agency did not ensure that the information it received from its eligible entities was
accurate before it certified and submitted the results to ACF. Specifically, submitted risk
assessments by 13 of the 40 eligible entities, which between them had received a combined
approximately $5.7 million in Recovery Act funds, did not report material weaknesses,
reportable conditions, questioned costs, and other findings cited in the most recent annual audits
available. In three instances, the conditions were entitywide, and in two instances the conditions
related to recipient eligibility.

DATA QUALITY AND REPORTING

Federal Requirements

Section 1201(c)(2) of the Recovery Act states that “[f]or amounts received under each covered
program by a grant recipient under this Act, the grant recipient shall include in the periodic
reports information tracking … the amount of Federal funds appropriated, allocated, obligated,
and outlayed under the appropriation.”

OMB’s December 18, 2009, Updated Guidance on the American Recovery and Reinvestment Act
– Data Quality, Non-Reporting Recipients, and Reporting of Job Estimates Memorandum

                                                5
(M-10-08 memorandum), simplified the manner in which job estimates are calculated and
reported. Specifically, the memorandum required recipients to report job estimates on a
quarterly, rather than cumulative, basis. As a result, recipients were no longer required to sum
various data on hours worked across multiple quarters of data when calculating job estimates. In
addition, recipients were no longer required to make a subjective judgment on whether jobs were
created or retained as a result of the Recovery Act. Instead, recipients would more easily and
objectively report on jobs funded with Recovery Act dollars. Recipients should have
implemented the updated methodology to the greatest extent possible for the January 2010
reporting period.

Inaccurate Recovery Act Accomplishments Reported

The State agency did not establish adequate internal controls for accurately reporting Recovery
Act accomplishments. Specifically:

   •   The State agency’s total Recovery Act expenditures, reported on the Recovery.gov
       website, did not agree with the actual expenditures as reflected in the State agency’s
       accounting system. On May 20, 2010, the Recovery.gov website showed that the State
       agency reported that it had expended $2,321,982 of Recovery Act CSBG funds as of
       March 31, 2010. However, the State agency’s accounting system showed that actual
       Recovery Act CSBG expenditures totaled $1,676,321 as of that date. Thus, the State
       agency overstated its Recovery Act expenditures in its reporting on the Recovery.gov
       website by $645,661.

   •   The State agency did not adequately review and take steps to confirm the job estimates
       submitted by the eligible entities. We reviewed information regarding the number of jobs
       created or retained as a result of the Recovery Act—information expressed in terms of
       full-time equivalents (FTE)—submitted by five entities and found that the time records
       did not support the jobs estimates. For example, for the quarter ending March 31, 2010,
       the five entities reported 140.3 FTE. However, based on the time records supporting the
       entities’ quarterly expenditures, we determined that the five entities should have reported
       only 16.4 FTE. Thus, these entities overestimated the number of jobs reported by 123.9
       FTE, and due to its inadequate internal controls the State agency did not identify these
       errors.

   •   Our interviews with State agency officials indicated that they had misunderstood
       Recovery Act reporting requirements and reported only the new FTE, that is to say the
       increase in FTE between the current and prior quarter. The State agency used a
       spreadsheet to track the jobs reported by the eligible entities. The estimate of the number
       of jobs created or retained, as shown on the State agency’s spreadsheet, did not match the
       number reported to the Recovery.gov website. For example, for the quarter ending
       March 31, 2010, the State agency’s spreadsheet showed 166.57 FTE and the
       Recovery.gov website showed 135 FTE. Furthermore, we noted that the spreadsheet
       showed zero FTE for entities that had in fact reported jobs on their monthly reports. The
       five entities described in our previous example reported 140.3 FTE, but the amounts
       recorded on the State agency’s spreadsheet for these entities totaled 129.1.

                                                6
       These discrepancies indicate that the State agency dropped FTEs reported by the eligible
       entities when it updated its spreadsheet, and that it dropped additional FTEs from the
       spreadsheet when reporting the job estimates on the Recovery.gov website. Because all
       of the FTE were not reported on the schedule used to track the jobs activity, we were
       unable to determine the total number of jobs underestimated by State agency as a result
       of this error.

LACK OF POLICIES AND PROCEDURES

These deficiencies occurred because the State agency lacked written policies and procedures to
ensure compliance with the provisions of the CSBG Act and the Recovery Act.

Without adequate internal controls, Recovery Act and regular CSBG program funds may be at
risk of fraud, waste, and abuse at eligible entities. Furthermore, the reporting errors could have
resulted in the public being misled or confused by incomplete information regarding the State
agency’s use of Recovery Act funds.

RECOMMENDATIONS

We recommend that the State agency:

   •   establish and implement written policies and procedures for the conduct of full onsite
       reviews at its eligible entities in a timely manner, ensure through these reviews that
       subgrantees have income eligibility validation controls in place, and properly document
       the results of these reviews; and

   •   correct inaccurately compiled and reported Recovery Act information and work with
       ACF to correct errors from reporting periods for which the State agency no longer has the
       ability to change independently on the Recovery.gov website.

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, the State agency agreed with our recommendations and
described corrective actions that it had implemented or planned to implement. We did not verify
the corrective actions.

The State agency’s comments are included in their entirety as the Appendix.




                                                 7
APPENDIX
                 APPENDIX: STATE AGENCY COMMENTS 




                                                                                             State of Colorado
                                                                                    John W. Hieken100f>CT, Governor
                                                                               Department of Local Affairs
                                                                              Pat Coyle. Interim Executive Director
                                                                       DIV ISION OF LOCAL GOVERNMENT
                                                                                     Tony Hernandez. Director

January 28, 2011

Patrick J. Cogley, Regiona llnspoctor General fOf Audit Services
U.S. Department of Health & Human Services, Office of Inspector Gencnl
Region VII
60 1 East 12'" 81.
Kansas City, Missouri 64106

RE:     OlG Review QfColorado'5 Monitoring ofCommunity Services Block Grants (CSBG)
        Report NA-07-IO-02761

Dear Mr. Cogley:

This letter is in response to the recommendations made by the Office of Inspector General (OIG) in the
above referenced document.

Recommendation III: State agency establish and implement written policies and procedures for tbe
conduct of fuJI onsite reviews at its eligible entities in 8 timely manner, ensure through these reviews that
sut>-gra ntees have income eligibility validation controls in place, and properly document the res ults of
these reviews.

Slate's Response: We agree with the aoove recommendation. Written policies and procedures are
currently being finalized pending approval and will be implemented with the new CSBO pr0g:r3rn year
beginning March I, lOl l . The policies and procedures include: a timeframe for onsite reviews; a fonnal
process for monitoring and recording results; and a methodology for valida ting income of beneficiaries of
the state's CSBG programs. Since August 2010, 37 ofthe state's ARRA recipients have been monitored
on-site with the remaining 3 scheduled fOt" monitoring in February.

Recommendation #2: State agency correct inaccurately compiled and reported Recovery Act information
and work with ACF to correct errors from reporting paiods for which the State agency flO longer has the
ability to change independently on the Rocovery.gov website.

State's Response: We agree with the aoove recommendation. Staff will review reportS to determine
which agencies were inaccurately reported and work with ACF to correct thestl errors. The department
identified the reason for expenditure differences in MaylJune 2010 and immediately corrected its process.

Thank you for the opportunity to respond 10 this repon. [fyou have any qUestiOrul, please do not hes itate
to contact Tony Hernande2 at (303) 866-4988 or email at Tooy. HernaodeZ@~tate _co.u~,

S' erely,._-'T_~




        "
        Executive Director




                          13t3 Sherman Stn:d , Room 521 , Denver, CO 80203. (303) 866-2156
                                  hlt(l~ldClh'_~f1!V         fAX (303) S6(,.48 t9
